No. 19-7

 

In THE
Supreme Court of the United States

SEILA LAw LLC,
Petitioner,

Vv.

CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

MOTION FOR LEAVE TO FILE BRIEF
OUT OF TIME AND BRIEF OF AMICUS CURIAE
UNITED STATES HOUSE OF REPRESENTATIVES
IN SUPPORT OF THE JUDGMENT BELOW

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
2,627 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 530 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 4, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
